No. 19-783

In THE
Supreme Court of the United States

NATHAN VAN BUREN,
Petitioner,
v.

UNITED STATES,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that the Brief for
Amicus Curiae Committee for Justice in Support of Petitioner in Van Buren v. United
States, No. 19-783, complies with the word limitations, as it contains 4,566 words.

I declare under penalty of perjury that the foregoing is true and correct.

Gots Rak

Date: July 8, 2020 Anthony J. Dick
